     Department of Homeland Security





       Direct Administrative Costs Paid for FEMA Public 

                   Assistance Grant Funds 





DD-12-19                                         August 2012

               ~a;          OFFICE OF INSPECTOR GENERAL
                ~~II'D ~~     Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                   AUG 2 7 1012

MEMORANDUM FOR:               George A. Robinson
                              Acting Regional Administrator, Region VI
                     ~~al
                        E e' g                   cy Manag      'ent Agency

FROM:                         tf. Mi  a    ear
                              Assist nt Inspector General
                              Office of Emergency Management Oversight

SUBJECT:                      Direct Administrative Costs Paid for
                              FEMA Public Assistance Grant Funds
                              Audit Report DD-12-19

Attached for your action is our final report, Direct Administrative Costs Paid for FEMA
Public Assistance Grant Funds. We incorporated the formal comments from FEMA
Region VI in the final report.

The report contains three recommendations aimed at identifying measures that the
Federal Emergency Management Agency (FEMA) can take to enhance the overall
effectiveness of the Public Assistance program. You responded to the draft report
stating that you concur with Recommendations #2 and #3 and provided acceptable
action plans, but did not provide target completion dates. You stated that you disagree
with Recommendation #1 ; however, you provided an acceptable alternative action plan
and a target completion date for your planned actions.

Within 90 days of the date of this memorandum, please provide our office with target
completion dates for Recommendations #2 and #3. Also, please include responsible
parties and any other supporting documentation necessary to inform us about the
current status of the recommendations. Until your response is received and evaluated,
Recommendation #1 will be considered open and resolved. Recommendations #2 and
#3 will be considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


Significant contributors to this report are Tonda L. Hadley, Director, Central Regional
Office; Paige Hamrick, Audit Manager; James Mitchell, Senior Program Analyst; and
Tai Cheung, Program Analyst.

Please call me at (202) 254-4100 with any questions, or your staff may contact
Tonda L. Hadley, Director Central Region Office, at (214) 436-5200.

Attachment
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   Background
   We are currently auditing $63.2 million of FEMA Public Assistance (PA) funds awarded
   to Cameron Parish, Louisiana (Cameron) (Public Assistance Identification Number 023-
   99023-00).1 The Governor’s Office of Homeland Security and Emergency Preparedness
   (GOHSEP), a FEMA grantee, awarded the funds to Cameron for disaster recovery work
   related to Hurricane Rita, which occurred in September 2005.

   At the conclusion of our audit, we plan to issue our complete audit report, including any
   additional findings and recommendations. However, the purpose of this report is to
   advise you of an issue that requires your immediate attention regarding $45.5 million in
   direct administrative costs (DAC) that FEMA Region VI has obligated for subgrantees
   that received PA awards for disasters declared before November 13, 2007.

   Results of Audit
   FEMA inappropriately authorized the retroactive application of laws, regulations, and
   policies regarding DAC for subgrantees that became eligible for disasters declared after
   November 13, 2007. As a result, FEMA Region VI has obligated a total of $45.5 million
   for DAC for all PA grants pursuant to two Louisiana disasters declared before November
   13, 2007.2 Before that date, FEMA used a sliding-scale administrative allowance to
   cover all direct and indirect costs associated with managing and administering subgrants
   under the PA program (44 CFR 207.9(b)). Therefore, we question $45.5 million because
   any costs claimed beyond the administrative allowance for this purpose are ineligible,
   duplicate costs. Appendix D presents the criteria we used for this report.

   Cameron’s Public Assistance Award Provides an Example of the Problems With the 

   Retroactive Application of Direct Administrative Costs 


   Included in the $45.5 million was $4.6 million of DAC that FEMA obligated for Cameron’s
   PA award. Of the $4.6 million FEMA obligated for DAC, Cameron had claimed
   $4.2 million as of October 19, 2011. Because Cameron has not yet completed many
   large projects, we expect Cameron’s claim for DAC to increase. Therefore, in this report,
   we use the obligated amount of $4.6 million except where we specifically refer to the
   claimed amount. FEMA not only obligated $4.6 million in DAC, but also obligated
   $373,689 for the sliding-scale administrative allowance that was supposed to be

   1
     As of October 2011, Cameron had claimed $77.2 million in disaster costs, which FEMA had reduced by 

   $14 million in insurance adjustments. 

   2
     Hurricane Katrina (1603-DR-LA) was declared August 29, 2005; Hurricane Rita (1607-DR-LA) was declared 

   September 24, 2005.


www.oig.dhs.gov                                       3                                              DD-12-19
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   available for Cameron’s projects because the disaster occurred before November 2007.
   To determine whether other pre-November 2007 disaster subgrantees were claiming
   ineligible DAC, we reviewed data stored in FEMA’s Enterprise Data Warehouse (EDW).3
   According to EDW, FEMA Region VI had obligated $45.5 million for DAC charged to
   projects for Louisiana subgrantees receiving PA for disasters that occurred from August
   28, 2005, through November 12, 2007. However, other FEMA regions obligated virtually
   no other DAC for these older disasters.4

   Additional Problems With Direct Administrative Costs for Cameron Parish

   Although we have not determined the full effect of FEMA’s retroactive application of
   the laws, regulations, and policies applicable to DAC, we found significant problems with
   the DAC Cameron claimed that go beyond the DAC eligibility rules applicable to disasters
   declared both beforefandfafter November 13, 2007. These problems indicate that FEMA
   Region VI and GOHSEP, as a grantee, need to establish policies and procedures to
   provide guidance on how the DAC should be applied. Specifically, the problems we
   identified relate to the requirements of applicable cost principles.5 Those cost principles
   require that, to be allowable under Federal awards, costs must be necessary and
   reasonable for the proper and efficient performance and administration of Federal
   awards and must be supported by adequate documentation. Further, FEMA has not
   provided guidance to its own employees or to the grantee and subgrantees as to what
   amount of DAC is reasonable relative to the total costs of a project. FEMA officials said
   that the agency is developing guidelines for implementing and determining cost
   reasonableness for retroactive application of DAC.

   Cameron’s claimed costs included unreasonable DAC for some projects relative to other
   project costs, unreasonable amounts of time charged to certain tasks, and unreasonable
   rates paid to high-level personnel for low-level tasks. Also, Cameron did not always
   maintain adequate documentation to support DAC claimed.

   In April 2008, Cameron procured the services of a consultant to assist with the 

   administration and management of its projects. Cameron claimed the costs for this 


   3
     We collected these data as of three different dates during our audit: Cameron claimed $4.2 million of
   the $4.6 million in DAC as of October 19, 2011; the EDW data were current as of December 15, 2011; and
   FEMA had obligated the $373,689 administrative allowance as of March 22, 2012.
   4
     Appendix A, Objectives, Scope and Methodology, provides a detailed description of all DAC recorded in
   EDW for the older disasters.
   5
     CostfPrinciplesfforfState,fLocalfandfIndianfTribalfGovernments are at 2 CFR 225 (Office of Management
   and Budget (OMB) Circular A-87, Revised); CostfPrinciplesfforfEducationalfInstitutions are at 2 CFR 220
   (OMB Circular A-21, Revised); and CostfPrinciplesfforfNon-ProfitfOrganizations are at 2 CFR 230 (OMB
   Circular A-122, Revised).

www.oig.dhs.gov                                       4                                              DD-12-19
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   consultant on a project-by-project basis; however, FEMA consolidated the $4.6 million
   administrative costs for all of Cameron’s 301 projects under two projects: (1) Project 4726
   ($3.5 million) for costs incurred before February 26, 2010; and (2) Project 4737 ($1.1
   million) for costs incurred after that date. The project worksheet attachments for these
   two projects list the individual amounts of DAC applicable to each of the 301 projects.

   We obtained a list of the 301 projects in Cameron’s award and reviewed the amount of
   DAC originally claimed for each project. We also judgmentally selected 28 projects with
   DAC totaling $1.7 million of the $4.2 million claimed.6 For the 28 projects, we reviewed
   supporting documentation for time charged by the consultant to determine whether
   tasks performed were similar to or duplicative of those allowed under the
   administrative allowance, and whether the title of the employee was appropriate for
   the task performed. Based on our review, we have the following concerns:

       •	 The DAC often appeared unreasonable relative to the total amount of the
          projects:
             o Cameron’s $63.2 million award included $4.6 million in DAC, or
                 7.8 percent of the total $58.6 million awarded for other costs.
             o	 DAC for individual projects ranged from 0 to 1,041 percent of other
                 project costs.

       •	 Cameron’s claim included $827,191 (4,718 hours) on the DAC task to provide
          additional documentation to FEMA and GOHSEP for PW4636 (Project
          Management). The contractor hired for project management was the same
          contractor performing DAC tasks.

       •	 The consultant’s supporting timesheets for DAC contained descriptions of tasks
          that were broad and clearly not chargeable to specific projects, such as “prepare
          detailed project files and maintain files” and “documentation requests.”

       •	 The time spent and the level of employees completing certain tasks may not be
          reasonable. For example, an associate engineer billed at $128.52 per hour
          recorded 44 hours to one project for “program funding request documentation.”
          This type of task appears more suited to clerical staff billed at much lower rates.

       •	 The consultant billed, and Cameron claimed, DAC for projects completed before
          Cameron hired the consultant. Cameron officials said that they directed the
          consultant to re-review completed projects. This seems unnecessary. FEMA

   6
    We based our selection of the 28 projects mainly on large dollar values of DAC, but we also included 

   smaller projects to obtain a mix of large and small projects.


www.oig.dhs.gov                                        5                                        	       DD-12-19
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           officials noted that re-review of completed projects may have been necessary,
           depending on the tasks, to prepare for closeout.

       •	 Cameron’s claim included an additional $103,860 misclassified as project
          management costs that were administrative in nature, because the costs were
          for activities such as preparing and maintaining files.

   We are also concerned that FEMA has not provided guidance to its own employees or to
   the grantee and subgrantees as to what amount of DAC is reasonable relative to the
   total costs of a project. We asked a FEMA Region VI official for examples of any
   guidance that FEMA had provided on determining the reasonableness of DAC. He said
   that he was not aware of any official guidance on determining the reasonableness of
   actual DAC claimed. However, FEMA had provided draft guidance on estimatingfandf
   obligatingfDAC for uncompleted projects. FEMA noted that staff did seek approval from
   their headquarters to use the draft guide as an estimating tool. Also, FEMA noted that
   final large project DAC would be based on actual, reasonable costs and any adjustments
   to small project DAC estimates would require “small project netting” and be reviewed
   for reasonableness. This guidance, ReasonablefDirectfAdministrativefCosts,
   recommends estimating specific amounts of total DAC for projects of varying amounts
   (see appendix C). For example, total DAC is estimated at—

       •	 $141 for projects ranging from $1,000 to $5,000 (2.82 percent to 14.10 percent),
       •	 $1,312 for projects ranging from $100,001 to $250,000 (0.52 percent to
          1.31 percent), and
       •	 $5,000 for projects over $1 million (0.50 percent or less).

   We applied the recommended amounts to Cameron’s 301 projects. Based on this
   guidance, if the projects had been uncompleted at the time, FEMA would have
   estimated total DAC at $325,446, or 0.56 percent of Cameron’s $58.6 million awarded
   for non-DAC projects ($63.2 million less $4.6 million in DAC). The $325,446 estimated
   according to this sliding scale is about 7 percent, or 1/14th of the $4.6 million that FEMA
   obligated for DAC on Cameron’s projects.

   FEMA obligates PA funds based on the amount of costs estimated for projects.
   Therefore, it should attempt to estimate costs that reasonably mirror actual costs. If
   FEMA believes that the amounts of estimated DAC listed in its own guidance are
   reasonable, it should publish similar guidance for establishing maximum amounts of
   actual DAC allowable for various project amounts.




www.oig.dhs.gov                                 6                                  	     DD-12-19
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   Conclusion
   The sliding-scale administrative allowance covers all direct and indirect costs associated
   with managing and administering subgrants under the PA program for all disasters
   declared before November 13, 2007. Therefore, we question $45,549,564 that FEMA
   Region VI obligated for DAC to subgrantees for disasters declared before November 13,
   2007, because these costs are ineligible, duplicate costs already covered by the sliding-
   scale administrative allowance that the subgrantees received.

   In addition, the problems we found with Cameron’s DAC seem to indicate that FEMA
   and GOHSEP, as the grantee, do not have adequate policies and procedures in place to
   administer the DAC obligations. As a result, FEMA Region VI personnel involved in the
   administration of PA grants need training to understand cost principles applicable to
   direct and indirect costs incurred under Federal grants. FEMA should also establish
   guidelines to assist its personnel and grantees in recognizing unreasonable or
   unnecessary DAC and in establishing limits to the DAC allowable for various project
   amounts.

   We met with FEMA Region VI officials on January 24, 2012, and discussed DAC for older
   disasters (those declared before November 13, 2007). These officials said that they
   retroactively applied the rules regarding DAC effective for disasters declared after
   November 13, 2007, to the older disasters at the direction of FEMA headquarters.

   We disagree that FEMA can retroactively apply the regulations on DAC. The Disasterf
   MitigationfActfoff2000 (Public Law 106-390) (DMA 2000) specifically stated that, until
   FEMA published the regulations to establish management cost rates, the expense
   percentages in section 406(f) of the Robert T. Stafford Disaster Relief and Emergency
   Assistance Act, Public Law 93-288, as amended, 42 U.S.C. §5121, et.seq., would apply to
   management costs.7 These expense percentages and the costs they cover are clearly set
   out in 44 CFR 207.9, as discussed in appendix D. Further, FEMA Region VI is the only
   FEMA Regional Office that is allowing subgrantees from older disasters to claim DAC. If
   FEMA headquarters believes that disasters that occurred before November 2007 should
   be eligible for DAC, we question why only 1 of its 10 regions is engaged in this practice.




   7
    Although the Law states the President is to determine management rates, Sections 4-201 and 4-203 of
   Executive Order 12148, July 20, 1979 (44 FR 43239), transferred this responsibility from the President to
   the Director of FEMA.

www.oig.dhs.gov                                        7                                                DD-12-19
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Recommendations
   We recommend that the Regional Administrator, FEMA Region VI:

   Recommendation #1:

   Disallow $45,549,564 in ineligible, duplicate direct administrative costs obligated for
   disasters that occurred before November 13, 2007.

   Recommendation #2:

   Provide training to FEMA Region VI personnel involved in the administration of public
   assistance grants to ensure that they understand cost principles applicable to direct and
   indirect costs incurred under Federal grants.

   Recommendation #3:

   Establish guidelines to assist its personnel and grantees in recognizing direct
   administrative costs that are unreasonable or unnecessary and in establishing maximum
   limits to the amount of direct administrative costs allowable for various project amounts.

   Management Comments and OIG Analysis
   We discussed the results of our audit with FEMA officials during our audit and included
   their comments in this report, as appropriate. We also provided a draft report in
   advance to FEMA officials and discussed it at an exit conference held with them on
   April 19, 2012.

   On July 13, 2012, FEMA provided us a written response, which appears in its entirety as
   appendix B. Below, we summarize and analyze FEMA’s comments on each of our
   recommendations.

   In its response, FEMA stated that it disagreed with Recommendation #1, and asserted
   that under the Stafford Act it has some discretion to reimburse DAC in addition to the
   sliding scale, subject to certain conditions. Consistent with that assertion, FEMA issued
   a policy on June 12, 2012, that provided an incentive for subgrantees to close out
   projects under disasters for Hurricanes Katrina and Rita by August 29, 2013. This
   incentive will allow direct costs for grant management up to 3 percent of eligible project
   costs. The costs must be applied on a project-by-project basis, and eligible activity costs
   must clearly be attributed to an eligible project. FEMA also stated that costs incurred to

www.oig.dhs.gov                                 8                                        DD-12-19
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   provide documentation for direct management cost claims, or to establish tracking
   systems, are not eligible for reimbursement.

   FEMA officials stated that, by September 30, 2012, FEMA will review and reconcile
   project worksheets prepared for DAC, and deobligate costs that exceed established
   limits or that lack sufficient documentation. As authority for providing this incentive,
   FEMA cited section 638(f) of the PostfKatrinafEmergencyfManagementfReformfActfoff
   2006, as amended, which directs the Administrator to “provide incentives for the timely
   closeout of PA projects under sections 406 and 407 of the [Stafford Act]” and establish
   recovery offices in the states of Mississippi, Louisiana, Alabama and Texas to effectuate
   the delivery of assistance to those affected by Hurricane Katrina and Hurricane Rita.

   Although FEMA’s response stated that it disagreed with this recommendation, it also
   stated that FEMA agrees that paying DAC in excess of the sliding scale for any other
   disasters is improper. Therefore, we consider FEMA’s action plan acceptable and
   consider the recommendation to be open and resolved.

   FEMA concurred with Recommendation #2 and commented that Region VI will
   coordinate with headquarters to develop training on cost principles applicable to direct
   and indirect costs incurred within the PA program. However, FEMA did not provide a
   target completion date for its planned actions; therefore, we consider the
   recommendation to be open and unresolved until we receive a target completion date.

   FEMA concurred with Recommendation #3 and commented that Region VI will work
   with headquarters to develop further guidelines on determining reasonable and
   appropriate reimbursement of DAC. However, FEMA did not provide a target
   completion date for its planned actions; therefore, we consider the recommendation to
   be open and unresolved until we receive a target completion date.




www.oig.dhs.gov                                9                                       DD-12-19
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   Our overall objective for the audit of Cameron Parish is to determine whether Cameron
   accounted for and expended FEMA PA funds according to Federal regulations and FEMA
   guidelines.

   We are conducting our audit of Cameron Parish pursuant to the InspectorfGeneralfActfoff
   1978, as amended, and according to generally accepted government auditing standards.
   Those standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and conclusions
   based upon our audit objectives. We believe that the evidence obtained provides a
   reasonable basis for our findings and conclusions based upon our audit objectives.

   For this report, we interviewed FEMA Region VI officials; reviewed all costs charged to
   cost code 9901 from FEMA’s EDW8 as of December 15, 2011, and for all FEMA regions
   for disasters that occurred from August 28, 2005, through November 12, 2007;9 and
   performed other procedures considered necessary to ensure the accuracy and reliability
   of our findings and conclusions. The costs from EDW totaled $49.1 million (454
   projects) and included costs obligated by FEMA Regions I, VI, VII, and IX. We reviewed
   the detailed costs for $48.2 million charged on 73 projects (98 percent of the DAC
   charged). Our detailed review included the following:




   8
     FEMA launched EDW in 2005 to enable FEMA decision makers to query and retrieve data in a number of
   FEMA data systems, including National Emergency Management Information System (NEMIS) and
   Emergency Management Mission Integration Environment (EMMIE).
   9
     FEMA’s Disaster Assistance Policy 9525.9, Sectionf324fManagementfCostsfandfDirectfAdministrativef
   Costs, section VII.D.6.b, instructs personnel involved in the administration of the PA program to enter DAC
   for subgrantees in the project costs under cost code 9901. FEMA operates 10 regions; FEMA Region VI is
   responsible for FEMA grant and subgrant activities in Texas, Louisiana, New Mexico, Arkansas, and
   Oklahoma.

www.oig.dhs.gov                                        10                                               DD-12-19
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   Appendix A (continued) 

   Objectives, Scope and Methodology 

        •	 Projects for Louisiana subgrantees with DAC charged greater than $10,000
           (32 projects totaling $48 million);

        •	 Projects outside of Region VI (7 projects totaling $136,439); and

        •	 Projects for Louisiana subgrantees that appeared to contain anomalies 

           (29 projects totaling $80,198). 


   Of the $136,000 charged to subgrantees outside the State of Louisiana, we initially
   determined that all but $40,800 was not DAC, but rather other types of costs
   erroneously charged or immaterial amounts. We questioned the $40,800 in a separate
   report addressed to FEMA Region VII.10 Region VII responded that the $40,800 was
   miscoded as DAC; therefore, the entire $136,439 outside Region VI was not DAC. We
   also determined that $3.4 million of obligated funds for Louisiana subgrantees was
   miscoded and was not DAC. The remaining DAC of $45.5 million applied solely to
   Louisiana in FEMA Region VI.




   10
     Report Number DD-12-09, FEMAfRegionfVIIfDirectfAdministrativefCostsfEstimatedfforfHarrisonfCounty,f
   Missouri, issued April 11, 2012. On May 11, 2012, Region VII responded to our report stating that the
   questioned costs of $40,800 were not DAC and that the region incorrectly recorded the costs using the
   9901 code for DAC.

www.oig.dhs.gov                                     11                                      	      DD-12-19
                                          OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Appendix B
   Management Comments to the Draft Letter Report
                                                                                                        u.s. Departm~n l or lI onlel. ll d S«-urit y
                                                                                                        RqionVI
                                                                                                        800 N. .Loop 288
                                                                                                        OmfOR, TX 16209-3698




                                                                                         ~~; FEMA
                                                                                           ~~"D"~


                                                                 July 13,20 12

                  MEMORANDUM FOR:                  D. Michael Beard
                                                   Assistant Inspector GcneraJ


                                                  ~
                                                   o pe of Emerg~~anagement Oversight
                                                  . /J. . /tfJ'l<4<&v>
              FROM:                              ~ Geor   A'-Robinson
                                                   Acting Regional Adminjstrator
                                                   FEMA Region 6

              SUBJECT:                             Direct Administrative Costs Pa id for FEMA Public Assistance
                                                   Grant Funds, Audit Report DO 12-XX


              FEMA has received the Department of Homeland Security Offi ee of lnspeclor General 's (O IG)
              May 30, 2012 draft report, DO 12-XX, Direct Administrati ve Costs (OAC) paid for FEMA
              Public Assistance Grant Fu nds. I The OIG requested FEMA 's com ments on the draft report and
              specific responses to each recommendation fo r inclusion in the 0 10's final report. This
              memorandum provides FEMA's comments.

              Background

              The 010 is currently auditing public assistance funds awarded to Cameron Pari sh, Loui siana, by
              the Louisiana Governor' s Office of Homeland Security (OOHSEP). a FEMA grantee, for
              disaster recovery work related to Hurricane Rita. Whi le performing tlle Cameron Parish audit,
              the O IG determined that FEMA Region 6 has obligated approximately $45.5 million in DAC for
              subgrantees fo r disasters declared between August 28. 2005, and November 13.2007. This
              amount includes $4.6 miJIion o bligated for DAC for Cameron Parish, in addition to $373.689
              which was Obligated for the sliding scale administrative allowance authorized under StaITord Act
              sect ion 406(1)' and 44 CFR 206.228(a)(2)(ii).

              The 010 concluded that FEMA Region 6 inappropriately appl ied the law, regulations and
              policies applicable to disasters declared after November 13,2007, retroactively to Cameron
              Parish and other subgrantces for d isasters declared before November 13,2007, primari ly
              Hurricanes Katrina and Rita.]




              I Direct Administrative Costs are costs Ihul tbc grantee or subgrantce incun; Ihat can be separately identified and
              assigned to a specific project Sce 44 C.F.R. § 207.6(e); FEMA Disaster Assistance Policy 9525.9. Section 324
              Management Costs and Direct Adminislralivf! Costs, VII. A. 5.
              , 42 U.S.C. !> 172(1)(2).
              ) DD l2-XX Direct AdministraTive COSI$., p.l.




www.oig.dhs.gov                                                        12                                                                              DD-12-19
                                        OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Appendix B (continued) 

   Management Comments to the Draft Letter Report 


              Direct Administrat ive Costs Paid for FEMA Public Assistance Grant Funds
              July 13,20 12
              11age 2


              The OIG found that FEMA bad not instructed its e mployees or grantees and subgrantees on the
              proper application of DAC in accordance w ith the cost principlcs applicable to fed~ral grant
              awards. The report also stated that Cameron Parish' s DAC costs appear to be unreasonable,
              inadeq uately supported, and mi sclassified.

              The OIG bas not completed its audit of Cameron Parish but issued this draft report to address:

                       •   the eligibility ofDAC, in addition 10 the sliding scale, for disasters declared prior to
                           November 13, 2007; and

                       •   guidance and training fo r FEMA employees, grantees, and subgrantees on the proper
                           application of DAC in accordance with the cost pri nciples applicable to federa l
                           grrultS.

              Discussion

              Section 406(1) of the Robert T. Stafford Disaster Relief and Eme rgency Assistance ActS
              (Stafford Act), authorized reimbursement of Public Assistance subgrantee "associated expenses"
              for requesting, obtaining, and administering Federal assistance based on a fonnu la or "sliding
              scale" specifi ed in the law. 6

              Tne operative legal standard for Public Assistance sUbgrantec "associated expenses" fo r
              requesting, obtaining, and administering Federal assistance resulting from Hurricanes Katrina
              and Rita is set forth at 44 C FR 207.9. This regulation applies to aU disasters declared prior to
                ovember 13, 2007.

              The costs to administer and mmmge grants received from the I)ublic Assistance program fal l into
              one of 1\.'10 categories: direct or indirect costs. Accord ing to 44 CFR 207.9, for direct costs,
              subgrantecs arc to be reimbursed "based on" a sli ding scale published in the regulation. That
              sliding scale mirrors the sliding scale contained in section 406(f)(1) of the StafTord Act. For
              subgrantec indirect COSLS, the regulation in paragraph 44 CFR 207.9 (c)(2) clearly states: "[nJo
              i.ndirect costs of a subgrantee arc separately eligi ble because the percentage allowed in paragraph
              (bX2) of thi s section covers necessary costs of requesting, obtaining a nd administeri ng Federal
              assistance."

              The intention of sect ion 207.9 was to provide a definition of eli gible direct costs, and limi t
              subgrantccs' eligibility for these costs to the percentage allowance. That said, the language


              • The Cost Principles for State, Local and lndin:n Tribal Go\'cmmcnts arc located at 2 C.F.R. Pan 225; Cost
              Principles for Educationailnstitulions arc located at 2 C.P.R. Pan 220; and Cost Principles farNan-Profit
              Organizations are localcd at 2 C.F.R. Part 230.
              5 Pursuanlto section 202 oftbc Disaster Mitigation Act of 2000, unri! the date on which FEMA established the
              management cost raleS under section 324 oftbe Stafford Act by regu lation, FEMA was required to utilize section
              406{f)(1) of the Stafford Act to establish mWlagcment cost rates to reimburse MY indircct cost, any administrative
              expense. and any other expense not directly cbargeablc to a spccific project. P.L. 106-390, 114 StaL 1560.
              • 42 U.S.C. § 5J72(Q.




www.oig.dhs.gov                                                       13                                                           DD-12-19
                                          OFFICE OF INSPECTOR GENERAL
                                                 Department of Homeland Security


   Appendix B (continued) 

   Management Comments to the Draft Letter Report 


                  Direct Administrative Costs Paid for FEMA Public Assistancc Grant Funds
                  July 13, 20 12
                  Page 3


              "[t]he grantee may providc funds to the subgrantee. , ,based on the following percentages,"
              provides FEMA some discretion to authorizc additional funds based on other factors. Moreover,
              while the regulation explicitly provides that no indirect costs of a subgrantee arc scparately
              el igible, it does not contain siluilar restrictive language with respect to direct costs. As a result,
              the regulation provides FEMA some discretion to reimburse additional direct management costs
              in excess of what is provided in the sliding scale in subsection (bX2).

              Although FEMA has the discretionary authority 10 interpret section 207.9 in trus manner. such an
              open ended application would make direct administrutivc costs e ligible for eyery disaster
              declared before November 13, 2007. Such an outcome would be contrary to the original
              intention oftbe regulution, administratively challenging, and potentially result in a signi,ficant
              drain on the Disaster Relief Fund. As suc h, rEMA declines such a broad and general appl ication
              of its regulation.

              That said, section 638(1) of tbc Post-Katrina Emergency Management Reform Act (PKEMRA)l
              authorizes the Administrator to open recovery offices in Mississippi, Louisiana, Alabama and
              Texas to effectuate the del ivery of assistance to those affected by Hurricane Katrina and
              Hurricane Rita. The section further directs the Administrdtor to ('provide incentives for the
              timely closeout of public assistance projects under sections 406 and 407 of the [Stafford Act].'"

              FEMA intends. \'lith appropriate limitations, to reimburse for additional dircct administrative
              costs, outside of the percentage aUowance provided for in 44 CFR 207.9, to incentivize closeout
              of 406 and/or 407 projects where appropriate in Mississippi, Louisiana. Alabama and Texas, for
              Hurricane Katrina and Hurricane Rita. Funhermore, due to the geographic and disaster specific
              limitations of FEMA' s authority under section 638, as well as the intended result of expedited
              closeout, FEMA finds that this incentive program will not provide open-ended access to the
              Disaster Relief Fund.

              Recommendation I: Disallow S45,549,564 ill iI/eligible, duplicate direct administrati . . e costs
              ob/igllted/or disasters tltat occurred be/ore November 13,2007.

              FEMA disagrees with this recomm endation .

              FEMA agrees that for any d isasters other than LA- I 603. MS-1604, AI?1605, TX-1606. and
              LA-1607 decl ared before November 13, 2007, any obligation of direct administrdtive costs in
              excess of the sliding scale for disasters is improper.

              However, by letter dated JW1C 12.2012, (attached) VEMA provided detailed guidance to the
              Louisiana GOHS Ep9 describing the conditions under which subgnmtees may claim up to three
              percent oflheir approved, c ligible. dOCW11cntcd, direct costs for grant management activities - in
              addition to the sliding scale - as an incentive to close out PA projects under Stafford Act sections


              7 Public Law 109-295 (October 4, 2(06).
              • td
              t   Si~i1ar letters were also sent to 1M Slates of MissiSSippi, Alabama, and Texas




www.oig.dhs.gov                                                         14                                              DD-12-19
                                       OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security


   Appendix B (continued) 

   Management Comments to the Draft Letter Report 


                  Direct Administrative Costs Paid for FEMA Public Assistance Grant Funds
                  July 13,2012
                  Pagc4


                  406 and 407 fo r Hurricanes Katrina and Rita. For these disasters, DAC in addition to the sliding
                  scale is eligib le, subject to certain conditions.

              The closeout incentive will be applied on a project by project basis. To be eligible for this
              incenti ve, the project must be complete and submitted for final project certification approval by
              August 29, 2013.

              In addition to the sl iding sca1e, projects qualifying for the incentive may receive DAC in an
              amount up to three percent of their approved, eli gible project costs. DAC charged to tbe sl iding
              scale may not also be charged under the closeout incentive. All costs must be for an eligible
              scope of work, documented, reasonable, and clearly attributed to a specific project. All costs
              must be fo r grant management costs eligible under Unifonn Federal Grant regulations, FEMA
              regulation and policy. The line item for the acti vity in the project worksheet must be for a
              clearly eLigible task and show that something was produced. The descriptions of tasks must be
              specific and clearly chargeable to a project, 3Jld all costs must have adequate documentation.
              UndOCWllcnted costs are not eligi ble. Finally. the records must clearly attribute the eligible
              activity cost to an eligible project. If they do not, the cost will be treated as an indirect
              management cost, which is limi ted to the sliding scaJe.

              Costs incurred to provide documentation in support of direct management cost clainlS, or to
              establish tracking systems, are not eligible for reimbursement.

              All management costs for Hurricane Katrina \vill expire on August 29, 20 13, pursuant 10 44 eFR
              207.9(d). As provided in subparagraph 44 CFR 207.9(d)(3)J grantees may submit a request for
              an extension to the period of availability.

              FEMA provides this limited and conditional exception to the provisions of 44 CFR 207.9 under
              the extraordinary authority contained in sec Lion 638 of PKEMRA to incentivize the rapid
              closeout of PA projects and thereby furth er the recovery efforts from Hurricanes Katrina and
              Rita. For all other emergencies or disasters decl ared before November 13,2007. the payment of
              costs to subgrantces is lintited to the percentages stated in 44 CFR 207.9(b)(2).

              The temlS of the incentive program do not apply to projects that, as of June 12,2012, are subject
              to either an Arbitration Agreement, Settlement Agreement, Civi lian Board of ConlrJct Appeals
              Decision, or single settlement agreement pursuanl to spccial legislation, that establishes either
              the total costs Utat the grant cannot exceed, or a date by which the project must be completed.
              For those proj ects, FEMA is either contractually obligated to reimburse the costs previously
              established, or the date of completion is already set thereby negating any benefit of a closeout
              incentive.

              FEMA will review and reconcile project worksheets prepared for DAC, incl uding but not limited
              to Cameron Parish, in accordance with its June 12, 20 12, letter. Costs that are in excess of the
              limits established, or lack sufficient documentation wiJI be deobligatcd. FEMA's in itial focus
              will be Oil those project worksheets prepared on behalf of Cameron Parish. FEMA wil l comp lete
              this analysis and provide reswts to the DIG by September 30, 2012.




www.oig.dhs.gov                                                 15                                                    DD-12-19
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


   Appendix B (continued) 

   Management Comments to the Draft Letter Report 


              Direct Administrative Costs Paid for FEMA I>ubl ic Assistance Grant Funds
              July 13) 2012
              Page 5


              Recommelldation 2: Pro vide training to FEMA Regioll VT p ersollllel ill volved ill the
              (u/millu'lralioll o/public assistance grants to ellsure they understand cost principles applicable
              to direct and i"direct cosls incurred ""der Federal gl'lllJls.

                  fEMA concurs with this recomm endation

              FEMA Region 6 will coordi nate with FEMA Headq uarters and assist in developing, within the
              agency's current plans for Public Assistance training. infonnation concerning cost principles
              applicablc to dircct and indirect costs incurred within the Public Assistance Program.

              Recommendation 3: Establish guidelilles to assist its per,m mrel ami grantees ill recolJnizing
              direct administrative cOl'ls that ure tlnreasolluble or IlIwecessary tutd ill establishing
              maximum limitj' to the amOl/1II of direct administrative cost allowllble for vtlfiOIlS project
              amou"ts.

                  FEMA concurs with this recommendation

              FEMA Region 6 wi ll work with FEMA Headquarters to devclop funhcr guidelines that may
              delineate that which would be considered reasonable and appropriate in the reimbursement of
              DAC.


              Thank you for the opportunity to provide FEMA 's comments and responses to this draft report,




www.oig.dhs.gov                                              16                                                    DD-12-19
                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Appendix C
   FEMA Guidance on Estimating Direct Administrative Costs
                                                                        DRAFT
                                Reasonable Direct Administrative Costs
                  Per FEMA-HQ. this table may be used in dedarations made on or after March 12, 2008,
                                     but ONLY under the '""condrtions set forth below

                                 ESTIMATED VALUES OF SUBGRANTEE
                                  DIRECT ADMINISTRATIVE COSTS (SDAC)
                                     Pursuant to DAP 9525.9, d ated March 12, 2008, page 7 of 8


                                                                      Adm inistrative- Cost
                    Total Eligible                           L."",                               Supp lfes and
                    Value of PW                     (S.aJary and Benefrts        Travel           Equipment              Total

                    5 1.000 - $5.000                           $1 11              51B                 $12                $141
                   55.001 - $15,000
                  $ 15 .001 - $25,000
                  $25.001 - SSO.OOO
                  $50,001 - seO,900
                  $60.901 - $100,000
                                                               $23B
                                                               $430
                                                               $496
                                                               $571
                                                               $700
                                                                                  ...
                                                                                  $2.
                                                                                  032

                                                                                  $82
                                                                                  $100
                                                                                                      $21
                                                                                                      $21
                                                                                                      $35
                                                                                                     $"
                                                                                                      $50
                                                                                                                         $204
                                                                                                                         $4"
                                                                                                                         "76
                                                                                                                         $8n
                                                                                                                         $850
                 5 100.001 - $250,000                         51 .081             "54                 $77               $1 .3 12


                                                                                  ....
                                                                                  O3DB
                 $250,001 - $500,000                          $2,192                                 $ 154              $2,654


                                                                                  ....
                 $500,001 - $750. 000                         $3.088              $441               $22 1              $3.750
                $750.001 - $1 .000.000                        $3.963                                 $283               $4.8 12
                    :. $1 ,000,000                            $4.118                                 $_                 " .000
                                                              'CONOITIONS FOR USE
          1. These v~e5 shllli only be used for projects that ere N OT complete.
          2 . Large proj eds (> $60,900) MI b e reconciled to actual cost at closeout.
          3. If appieant elects to submit a small project appeal. ALL sma. projects wiI be based
             on actual oosts (actual cost for admin wiI be part of the netting process).


                                                                        DRAFT
          If the applicant is requesting Direct Administrative Costs, the following s tatement is used:

          ( DATE) THE SUBGRANT EE IS REOUESTING D IRECT AOMIN ISTRATIVE COST S THAT ARE D IRECTLY
          C HAR GEABLE TO TH IS SPECIFIC PROJECT. ASSOCLATED EUGIBl E WORK IS RElATED TO
          ADMIN ISTRATIon O F THE PA PROJECT ONLY AND IN ACCORDANCE W ITH 44 CFR 13.22.. THESE
          COSTS ARE TREAT ED CONSISTENTLY AND UNIFORMLY AS DIRECT COSTS IN ALL FEDERAL
          AWARD S AND OTHE R SUBGRANTEE ACTIVITIES AND ARE N OT IN C LU D ED IN AHY APPROVED
          INDIRECT COST RATES. (Project Speciaisfs Name)

          Ifthe a pplicant does not choose     to   utilitze Direct Administr ative Costs, the follow ing statement is input
          on th e PW:

          ( DATE) THE SUBGRANT EE CHOSE NOT TO C LAIM ANY DIRECT ADMINISTRATIVE COSTS FOR THIS
          PROJECT. (Protect Specialisfs Name)

          Add a line item i n either case u sing 9901 Direct Administrative Costs (Subgr.mtee) as the cost code. Use
                                                          4



          o q uantity and .01 f or th e cost when N O T c la iming Dir@Ct Administrative Costs.

          Appty local r.II t es, N OT national contractor cost s.




www.oig.dhs.gov                                                          17                                                        DD-12-19
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix D
   Criteria Used for this Report
   DisasterfMitigationfActfoff2000f

   DMA 2000 amended the Stafford Act by adding Section 324,fManagementfCosts.
   According to that section, FEMA was to publicize regulations to establish management
   cost rates and, until FEMA published these regulations, the expense percentages in
   section 406(f) of the Stafford Act would apply to management costs. On October 11,
   2007, FEMA published the ManagementfCosts interim rule (FederalfRegister, 72 FR
   57869) that established the management cost rates for emergencies and major
   disasters. The rule went into effect on November 13, 2007, and was implemented at 44
   CFR 206, FederalfDisasterfAssistance, andf44 CFR 207,fManagementfCosts.f

   Disasters declared on or after November 13, 2007

   FEMA’s interim rule simplified the determination of management and administrative
   costs allowable for grantees and subgrantees by defining such costs as direct or indirect,
   and eliminating the sliding-scale administrative allowance described in section 406(f) of
   the Stafford Act. FEMA’s Disaster Assistance Policy 9525.9, Sectionf324fManagementf
   CostsfandfDirectfAdministrativefCosts, applicable to all major disasters and emergencies
   declared on or after November 13, 2007, includes the following definitions and
   provisions:

       •	 DirectfAdministrativefCosts are costs the grantee or subgrantee incurs that can
          be identified separately and assigned to a specific project (44 CFR 207.6(c)).
          FEMA will reimburse direct administrative costs incurred by grantees and
          subgrantees that are properly documented and directly chargeable on a project
          worksheet (PW) for a specific project. Actual costs must be reasonable for the
          work performed and accounted for according to 44 CFR 13.22 – AllowablefCosts
          (44 CFR 207.6(a) and (c)).




www.oig.dhs.gov                               18                                  	     DD-12-19
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix D (continued)
   Criteria Used for this Report
       •	 ManagementfCosts are any indirect costs, administrative expenses, and any
          other expenses that a grantee or subgrantee reasonably incurs in administering
          and managing the PA grant that are not directly chargeable to a specific project
          (44 CFR 207.2). Only grantees are eligible to apply to FEMA for section 324
          management costs. FEMA will reimburse section 324 management costs in an
          amount not to exceed 3.34 percent of the Federal share of projected eligible
          program costs, not including direct Federal assistance, for major disaster
          declarations and 3.90 percent of the Federal share of projected eligible program
          costs, not including direct Federal assistance, for emergency declarations.

       •	   Pass-throughffunds are the percentage or amount of management costs that
            the grantee determines it will make available to subgrantees (44 CFR
            206.207(b)(1)(iii)(K)).

   In summary, for major disasters and emergencies declared on or after
   November 13, 2007, (1) grantees and subgrantees may request reimbursement for
   reasonable DAC that are properly documented and chargeable to a specific project; and
   (2) only grantees are eligible to apply for management costs that are not directly
   chargeable to a specific project, but the grantee may pass through a contribution from
   its flat percentage toward the subgrantee’s indirect costs for managing and
   administering projects.

   Disasters declared before November 13, 2007

   As stated previously, FEMA’s interim rule went into effect on November 13, 2007, and
   was implemented at 44 CFR 206, FederalfDisasterfAssistance, andf44 CFR 207,
   ManagementfCosts. The regulation contains a specific section (207.9) that “describes
   how FEMA provides administrative and management cost funding for PA and HMGP for
   major disasters or emergencies declared before November 17, 2007.” According to 44
   CFR 207.9, for declarations before November 13, 2007, grantees and subgrantees
   receive reimbursement for their direct and indirect costs of managing and administering
   disaster assistance funds in the same manner as before DMA 2000.




www.oig.dhs.gov                              19                                 	     DD-12-19
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix D (continued)
   Criteria Used for this Report
   For older disasters declared before November 13, 2007, grantees still receive State
   management administrative costs, indirect costs, and the sliding-scale administrative
   allowance; and subgrantees still receive only the sliding-scale administrative allowance
   to cover both direct and indirect costs for managing and administering disaster funds
   received under subgrants.




www.oig.dhs.gov                               20                                        DD-12-19
                             OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Appendix E
   Report Distribution
   Department of Homeland Security

   Secretary
   Chief Financial Officer
   Under Secretary for Management
   Audit Liaison, DHS

   Federal Emergency Management Agency

   Administrator
   Chief of Staff
   Chief Financial officer
   Chief Counsel
   Director, Risk Management and Compliance
   Executive Director, FEMA Louisiana Recovery Office
   Audit Liaison, FEMA Louisiana Recovery Office
   Audit Liaison, FEMA Region VI
   Audit Liaison, FEMA (Job Code G-11-067)

   Grantee

   Director, Louisiana Governor’s Office of Homeland Security and Emergency
       Preparedness
   Audit Liaison, Louisiana Governor’s Office of Homeland Security and Emergency
       Preparedness

   State

   Louisiana Legislative Auditor

   Subgrantee

   President, Cameron Parish, Louisiana




www.oig.dhs.gov                                21                                  DD-12-19
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
